HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Arkansas Blue Cross and Blue Shield, (A-07-98-02525)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Arkansas
Blue Cross and Blue Shield," (A-07-98-02525)
September 3, 1998
Complete Text of Report is available in PDF format
(1.01 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Arkansas Blue Cross and Blue Shield. Our review
showed that Arkansas Blue Cross and Blue Shield (Arkansas) underclaimed allowable
Medicare pension costs for 1991 through 1996 by $1,756,942. The underclaim occurred
primarily because Arkansas did not base its claim on separately computed Cost
Accounting Standards (CAS) pension costs for the Medicare segment. We recommend
Arkansas revise its Final Administrative Cost Proposals (FACPs) to reflect the
remaining allowable pension costs. Arkansas concurred with our finding and recommendation.